No. 20-932

In The
SUPREME COURT OF THE UNITED STATES

BOBBY L. FRANKLIN, D/B/A DAYDREAM
LAND & SYSTEMS DEVELOPMENT,
Petitioner,
v.
D.J. LAUGHLIN; ATTORNEY WILLIAM R. URGA,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify
that the accompanying Petition for Rehearing contains
939 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
Pursuant to 28 USC 1746, I certify under penalty of
perjury that the foregoing is true and correct.
Executed on March 18th, 2021 by:

vu
Bobby L. Franklin
Desert Land Entryman N-49548
2451 N. Rainbow Blvd. #2037
Las Vegas, NV. 89108
Petitioner pro se
830-822-4791
dlepatent@hotmail.com

